OIG Investigative Reports, Federal Officials Announce the Filing of a Criminal Indictment Charging a Current Member of the Wilkes-Barre Area School District Board of Eucation with Conspiracy
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney’s Office
Middle District of Pennsylvania
William J. Nealon Federal Building
Suite 311
235 N. Washington Avenue
P.O. Box 309
Scranton, PA 18503-0309
(570) 348-2800
FAX (570) 348-2037/348-2830
Ronald Reagan Federal Building
Suite 220
228 Walnut Street
P.O. Box 11754
Harrisburg, PA 17108-1754
(717) 221-4482
FAX (717) 221-4493/221-2246
Herman T. Schneebeli Federal Building
Suite 316
240 West Third Street
Williamsport, PA 17701-6465
(570) 326-1935
FAX (570) 326-7916
September 15, 2009
Please respond to: Harrisburg
NEWS RELEASE
FEDERAL OFFICIALS ANNOUNCE THE FILING OF A CRIMINAL INDICTMENT
CHARGING A CURRENT MEMBER OF THE WILKES-BARRE AREA SCHOOL
DISTRICT BOARD OF EDUCATION WITH CONSPIRACY
Dennis C. Pfannenschmidt, United States Attorney for the Middle District of Pennsylvania; Janice Fedaryck, Special Agent in Charge, Federal Bureau of Investigation; and Don Fort, Special
Agent in Charge, Internal Revenue Service-Criminal Investigation Division, jointly announced today that an Indictment was returned today by a federal grand jury in Scranton charging Frank
Pizzella, Jr., a current member of the Wilkes-Barre Area School District Board of Education, with conspiracy to corruptly give $5,000 in cash to a member of the Board of Education in connection with the hiring of a teacher in 2004.
The charge returned by the grand jury today alleges that during 2004 (before he was elected to the Board of Education), Pizzella conspired with others to corruptly give $5,000 in cash to a member of the Wilkes-Barre Area School District Board of Education in exchange for a teaching job. The Indictment charges that the cash for the payment came from the father-in-law of the teacher and was transferred by Pizzella to the school board member. Pizzella faces a maximum of ten years’ imprisonment and a fine of up to $250,000.
According to U.S. Attorney Pfannenschmidt, Pizzella is the fourteenth person charged with criminal conduct since late January of this year in an on-going investigation targeting public corruption in Luzerne County. In January 2009, Mark Ciavarella and Michael Conahan, the former President Judges of the Court of Common Pleas of Luzerne County, were charged with engaging in honest services fraud and tax conspiracy. Ciavarella and Conahan were indicted by a federal grand jury on racketeering and other charges on September 9, 2009. William Sharkey, the former Court Administrator of Luzerne County, has pleaded guilty to embezzlement charges and is awaiting sentencing. Sandra Brulo, the former Deputy Director of Forensic Programs for the Luzerne County Probation Office, has pleaded guilty to obstruction of  justice and is awaiting sentencing.
In addition, On April 20, 2009, Brian Dunn, age 45, a member of the school board for the Wilkes-Barre Area School District, was charged in a criminal complaint with allegedly accepting cash
in connection with the hiring of teachers and the awarding of contracts by the Wilkes-Barre Area School District. On May 18, James Height, age 53, of Wilkes-Barre, Pennsylvania, who resigned
as President of the Wilkes-Barre Area School District Board of Education, was charged in a criminal information with allegedly accepting $2,000 in cash in connection with support he provided
to a contractor in connection with an attempt by the contractor to obtain a contract with the Wilkes-Barre Area School District. On May 20, 2009 Dr. Ross Scarantino, age 63, of Duryea, who recently tendered his resignation as Pittston Area School District Superintendent, was charged in a criminal information with allegedly accepting $5,000 in cash in connection with support he provided to a contractor in connection with the contractor obtaining a contract with the Pittston Area School District. Scarantino and Height have both pleaded guilty to these charges and agreed to cooperate in the on-going investigation.
On June 9, 2009, Attorney Robert Powell was charged in a
two-count information with misprision of a felony and being an
accessory after the fact. Powell has pleaded guilty to the
charges and is awaiting sentencing. On August 4, 2009, Karen
Holly, age 51, of West Pittston, Pennsylvania, was charged in an
information with theft of more than $5,000 from the Wyoming
Valley Sanitation Authority, an agency receiving federal funds.
On August 10, 2009, Joseph Oliveri, a former member of the school
board for the Pittston Area School District, was charged in an
information with the corrupt receipt of a reward for his official
action concerning the awarding of a contract by the Pittston Area
School District. On August 13, 2009, Robert K. Mericle was
charged with misprision of a felony. Gerald Bonner, a member of
the Luzerne County Housing Authority, was indicted on September
1, 2009, on a charge of corrupt receipt of a reward/bribe. On
September 11, 2009, William Maguire, another member of the
Luzerne County Housing Authority, was also charged with corrupt
receipt of a reward.
Also as a result of the investigation, former Luzerne County
Prothonotary Jill Moran resigned from her office and voluntarily
agreed to the entry of a court order directing her to cooperate
with the on-going federal public corruption probe looking into
allegations of misconduct at the Luzerne County Courthouse.
On April 8, the FBI issued a statement requesting the
public’s assistance in this on-going investigation. Anyone with
information is asked to call the public corruption task force
toll free at 1-866-996-4320.
This case is part of an on-going investigation by the
Federal Bureau of Investigation and the Internal Revenue Service
and is being prosecuted by a team of federal prosecutors led by
Senior Litigation Counsel Gordon Zubrod and includes Assistant
U.S. Attorneys William Houser, Michael Consiglio, Amy Phillips
and Criminal Division Chief Christian Fisanick. Pfannenschmidt
praised this team of investigators and prosecutors for their
tireless efforts on behalf of the people of Luzerne County.
****
An Indictment or Information is not evidence of guilt but simply a description of the charge made
by the Grand Jury and/or United States Attorney against a defendant. A charged Defendant is
presumed innocent until a jury returns a unanimous finding that the United States has proven the
defendant’s guilt beyond a reasonable doubt or until the defendant has pled guilty to the
charges.
Top
Printable view
Last Modified: 09/17/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov